Audit of USAID/Mozambique’s Performance
Monitoring of Railroad Rehabilitation under the
Southern Africa Floods Supplemental Appropriations
Audit Report No. 4-656-05-001-P
November 4, 2004




            PRETORIA, SOUTH AFRICA
November 4, 2004


MEMORANDUM
FOR:           USAID/Mozambique Mission Director, Jay L. Knott

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/Mozambique’s Performance Monitoring of Railroad
               Rehabilitation under the Southern Africa Floods Supplemental
               Appropriations (Report No. 4-656-05-001-P)

This memorandum is our report on the subject audit for your review and comment. In
finalizing this report, we considered management comments on the draft report and have
included those comments, in their entirety, as Appendix II in this report.

This report has one recommendation.           In response to the draft report,
USAID/Mozambique concurred with the recommendation, took action to complete a
formal evaluation and is planning to conduct a final evaluation after the end of the
contract. Therefore, we consider that a management decision has been reached for the
recommendation. Please provide the Bureau for Management, Office of Management
Planning and Innovation with evidence of final action in order to close the
recommendation.

I appreciate the cooperation and courtesy extended to my staff during the audit.
(This page intentionally left blank.)
           Summary of Results .............................................................................................5
Table of
Contents   Background ..........................................................................................................5

           Audit Objective ....................................................................................................7

           Audit Finding .......................................................................................................8

                    Evaluation of Contractor’s Performance Needs to Be Conducted
                    and Documented ......................................................................................10

           Evaluation of Management Comments ..............................................................12

           Scope and Methodology.....................................................................................13

           Management Comments.....................................................................................15




                                                                                                                                    3
(This page intentionally left blank.)




                                        4
Summary of   In the year 2000, a series of tropical cyclones struck southern Africa, and, as a
Results      result, the countries in this region experienced the worst flooding in a century.
             These storms hit Mozambique the hardest. To help alleviate problems caused by
             the storm-related damage, the U.S. Congress passed supplemental appropriations
             totaling $160 million. USAID/Mozambique obligated $55 million of these
             supplemental appropriations to restore 525 kilometers of the Limpopo Rail Line—
             a major domestic and regional transport artery. (See pages 5-6.)

             The objective of this audit was to determine whether USAID/Mozambique
             implemented and monitored its railroad reconstruction activities under the
             Southern Africa Floods Supplemental Appropriations in accordance with USAID
             policies and procedures. (See page 7.)

             The audit showed that USAID/Mozambique implemented and monitored its
             railroad reconstruction activities in accordance with USAID policies and
             procedures. For example, the Mission ensured that the contractors were
             performing in accordance with the contract terms, reviewed and approved
             performance reports, and maintained adequate documentation of the activities. As
             a result, the Mission was successful in the reconstruction of the 525-kilometer
             Limpopo Rail Line. (See page 8.)

             However, despite USAID/Mozambique’s successful implementation and
             monitoring efforts, the Mission did not perform annual contractor performance
             evaluations as required by USAID’s Automated Directives System (ADS). As a
             result, vital information on the engineering consulting firm’s performance was not
             officially documented. (See pages 10-11.)

             This report contains one recommendation that USAID/Mozambique evaluate and
             document the performance of the engineering consulting firm. (See page 11.)

             In response to the draft report, USAID/Mozambique concurred with the
             recommendation. In addition, the Mission on October 20, 2004, took action to
             complete a formal performance evaluation and is planning to conduct a final
             evaluation after the end of the contract. Therefore, we consider that a
             management decision has been reached on the recommendation upon final report
             issuance. (See page 15.)

Background   From February through May 2000, southern Africa experienced its worst flooding
             in a century—caused by three cyclones. Hardest hit was the country of
             Mozambique. To provide assistance for southern African countries affected by
             these storms, the U.S. Congress appropriated $25 million in fiscal year 2000 for
             the Southern Africa Flood Reconstruction Program. The following year,
             Congress appropriated an additional $135 for a total of $160 million. Of these
             amounts, USAID/Mozambique received $132 million, of which $55 million was
             obligated for reconstruction of the damaged Limpopo Rail Line. The remaining


                                                                                             5
$77 million was programmed for other emergency uses, including road
rehabilitation.

To fund the railroad reconstruction, USAID/Mozambique entered into a grant
agreement with the Government of Mozambique. The Mozambican Railway
Company also known as Portos e Caminhos de Ferro de Mocambique E.P. (CFM)
was the primary implementer and beneficiary of the project to fully restore the
track of the Limpopo Rail Line. CFM was a Government of Mozambique
parastatal company operating under the authority of the Ministry of Transport and
Communications. To carry out reconstruction of the Limpopo Rail Line, CFM
entered into a host country contract with a joint venture construction firm.
USAID/Mozambique contracted directly with an engineering consulting firm to
provide technical design and supervision services to CFM.

The Limpopo Rail Line was a major domestic and regional transport artery which
was severely damaged by the cyclones and the subsequent flooding. During the
initial work on the Limpopo Rail Line, which began on March 1, 2002, 225
kilometers from Maputo to the north side of the Limpopo River at Macarretane
was reconstructed. In addition to fully restoring the track and line, repairs were
made to the associated infrastructure (station houses, communication
infrastructure, bridges, etc.). This work, known as Phase I, was completed by
March 31, 2004. The Phase I reconstruction costs were $39.9 million and
oversight costs were $6.3 million.

The Government of Mozambique then proposed extending the work on the
Limpopo Rail Line from the Limpopo River to Chicualacuala (on the
Mozambique/Zimbabwe border). USAID/Mozambique agreed, and this activity,
known as Phase II, began in March 2004. This phase involved heavy
maintenance (track alignment and earth work) and extended the rehabilitation
effort an additional 300 kilometers at an estimated cost of $5.5 million. Oversight
costs for Phase II are estimated at $1.4 million. Phase II is expected to be
completed by the September 30, 2004 deadline. Phases I and II will result in total
costs of approximately $53.1 million, including costs for reconstruction and
oversight.




                                                                                 6
                  End of Phase II




                    End of Phase I and
                    Start of Phase II



                  Start of Phase I




                This map of Mozambique illustrates locations of Phase I of the Limpopo Rail Line
                reconstruction from Maputo to Macarretane and Phase II from Macarretane to
                Chicualacuala. (Source:http://www.lib.utexas.edu/maps/africa/mozambique_po195.jpg)



Audit       This audit was conducted at USAID/Mozambique as part of Regional Inspector
Objective   General/Pretoria’s annual audit plan. The audit answered the following question:

            •       Did USAID/Mozambique implement and monitor its railroad
                    reconstruction activities under Southern Africa Floods Supplemental
                    Appropriations funding in accordance with USAID policies and
                    procedures?

            Appendix I contains a discussion of the audit's scope and methodology.



                                                                                                     7
Audit     USAID/Mozambique implemented and monitored its railroad reconstruction
Finding   activities under Southern Africa Floods Supplemental Appropriations in
          accordance with USAID policies and procedures. However, the Mission had not
           performed contractor performance evaluations as required by USAID’s
           Automated Directives System (ADS) section 302.5.9.

          In accordance with the requirements of ADS 202.3.6.1, USAID/Mozambique:

             •   reviewed and approved deliverables and performance reports;
             •   maintained a Cognizant Technical Officer’s work file;
             •   reported variations, proposed substitutions, and problems;
             •   recommended modifications;
             •   analyzed financial reports; and
             •   approved interim payments.

          In addition, USAID/Mozambique conducted regular site visits to the railroad to
          observe progress and participated in monthly meetings with the engineering
          consulting firm and representatives from the Mozambican Railway Company also
          known as Portos e Caminhos de Ferro de Mocambique E.P. (CFM). Furthermore,
          USAID/Mozambique regularly communicated with the various officials involved
          with the project. With the assistance of the implementing partners, the Limpopo
          Rail Line reconstruction is scheduled to be completed in September 2004. As a
          result of USAID/Mozambique’s implementation and monitoring efforts, the
          Mission ensured that the contractors performed in accordance with the contract
          terms, and it appears all 525 kilometers will be completed without exceeding the
          $55 million which was obligated for reconstruction of the damaged Limpopo Rail
          Line.




                                                                                        8
Photograph showing damage to the Limpopo Rail Line at Macarretane caused by flooding in
2000. (Photo courtesy of USAID/Mozambique.)




Photograph showing the same portion of the Limpopo Rail Line supported by the reconstructed
bridge in 2004. (Photo courtesy of USAID/Mozambique.)

Although USAID/Mozambique implemented and monitored the railroad
reconstruction activities in accordance with USAID policies and procedures, it did
not conduct annual contractor performance evaluations as required. To date, the
Mission only performed one evaluation, while the ADS requirement called for at
least three. Thus, we are making a recommendation, provided in the following
section that will address this problem.




                                                                                         9
Evaluation of Contractor’s Performance
Needs to Be Conducted and Documented

Summary: USAID/Mozambique did not, in accordance with USAID and Mission
policy, conduct an annual contractor performance evaluation or prepare an annual
contractor performance report for the engineering consulting firm that supervised
the reconstruction contractor. This requirement, to evaluate and document the
performance of the firm, was overlooked by USAID/Mozambique officials. As a
result, vital information on the contractor’s performance had not been officially
documented. This practice could result in the future selection of contractors with
poor past performance.

According to ADS 302.5.9,

     It is USAID policy that contracts in excess of $100,000, including
     individual task orders under indefinite quantity contracts, must be
     evaluated at least annually (for contracts exceeding one year in
     duration) and upon completion of activities, as required by FAR
     42.1502…. More frequent evaluation may be conducted if the
     Contracting Officer and Cognizant Technical Officer determine them
     to be in the best interests of the activity.

Additional guidance is provided in ADS 202.3.6.1, which states that Cognizant
Technical Officers’ (CTOs) responsibilities for monitoring contractor
performance may include, in part, “preparing annual Contractor Performance
Reports for contracts that have a value of more than $100,000, and submitting
them to the Contracting Officer.” Finally, USAID/Mozambique’s Mission Order
302, which addresses Contractor Past Performance Evaluations, states, “For
applicable contracts with a period of performance of one year or less, the
evaluation will be conducted immediately after completion. For multi-year
contracts, the evaluation will be conducted annually immediately after each
anniversary date of the contract.”

USAID/Mozambique awarded a contract on October 13, 2000 to an engineering
consulting firm to provide design and supervision services for the reconstruction
of the Limpopo Rail Line financed under the supplemental appropriations
funding. This contract exceeded the dollar threshold specified in the ADS for
requiring annual performance evaluations. In July 2003, USAID/Mozambique
completed a performance evaluation for the contractor covering the period
January 20, 2001 to October 31, 2002, but this evaluation was for a 21-month
period instead of the required two evaluations for each 12-month period of the
contract. In the evaluation, USAID/Mozambique reported dissatisfaction in one
area that it rated. At the time of the audit, USAID/Mozambique had not
conducted any evaluations for the subsequent 22-month period after October 31,
2002.    Thus, USAID/Mozambique had completed only one performance
evaluation for this contractor while the ADS required at least three.



                                                                               10
The CTO responsible for monitoring this project said that he had not provided a
performance evaluation report to the Procurement Management Unit because he
was waiting for the Unit to request this information. According to a Procurement
Management Unit official, that office had planned a final evaluation in 2003,
believing that the reconstruction work would be completed by that time.
However, the period for completing the work was extended, and the Mission
subsequently overlooked the need to conduct a performance evaluation for that
period. This is not the first instance of USAID/Mozambique being made aware of
problems related to its handling of contractor performance evaluations. In
January 2003, the Office of Inspector General issued Audit Report No. 4-656-03-
001-P, which reported that USAID/Mozambique had not conducted annual
performance evaluations for two engineering consulting firms who were
providing design and supervision services for the repair and reconstruction of
road segments and bridges. A recommendation was made for the Mission to
conduct a performance evaluation of the two firms.

Performance evaluation is an important management tool. It documents
contractor performance in areas such as quality, cost control, and timeliness.
USAID should use these evaluations to support future award decisions. In this
case, performing a timely performance evaluation was important in light of the
problem identified in the one and only evaluation conducted, since a subsequent
evaluation could have served as a means to identify whether the engineering
consulting firm’s performance had improved in that area. Moreover, such
evaluations may be used by other agencies in the U.S. Government when
considering procurement decisions with USAID contractors. Not having this
information available for other agencies to review could result in the inefficient
use of U.S. Government resources.

To ensure that the performance of the engineering consulting firm is documented
in accordance with USAID policy, we make the following recommendation.

       Recommendation No. 1: We recommend that USAID/Mozambique
       conduct a current performance evaluation of the engineering
       consulting firm that provided design and supervision services for the
       railroad rehabilitation funded under the Southern Africa Floods
       Supplemental Appropriations and prepare a contractor performance
       report documenting the results of the evaluation.




                                                                               11
Evaluation of   In response to our draft report, USAID/Mozambique management concurred with
Management      Recommendation No. 1. According to Mission Management, the Cognizant
                Technical Officer completed a performance evaluation of the engineering
Comments
                consulting firm on October 20, 2004, and is planning to perform a final evaluation
                after September 30, 2005. Therefore, we consider that a management decision
                has been reached upon final report issuance.




                                                                                               12
                                                                                     Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. The audit covered the period
              from August 2000 through the end of our fieldwork on August 27, 2004, and
              assessed USAID Mozambique’s implementation and monitoring of its railroad
              reconstruction activities under the Southern Africa Floods Supplemental
              Appropriations in accordance with USAID policies and procedures.

              The scope of the audit included approximately $55 million of supplemental
              appropriations funding that USAID/Mozambique obligated to reconstruct the
              Limpopo Rail Line from Maputo to Chicualacuala, bridges, and other associated
              infrastructure damaged by floods. In planning and performing the audit, we tested
              and assessed internal controls for USAID/Mozambique related to its monitoring of
              the contractors associated with the project.

              In planning and performing the audit, we obtained an understanding of
              USAID/Mozambique’s management controls, specifically regarding the
              implementation and monitoring activities of the Limpopo Rail Line and efforts to
              keep the project on time and within budget. For example, we examined and
              assessed whether USAID/Mozambique had (1) developed a monitoring plan for
              tracking inputs and outputs, (2) established and maintained a separate work file for
              documents and correspondence, (3) conducted site visits to evaluate progress, (4)
              documented significant actions, meetings, or conversations with contractors, (5)
              monitored funds closely on a regular basis, and (6) ensured the accuracy of reports
              submitted by the contractors.

              The types of evidence examined during the audit included—but were not limited
              to—the Mission’s implementation and monitoring of the railroad reconstruction
              activities, including internal documents and external correspondence with major
              stakeholders. Such evidence included contracts and related documents, progress
              reports, meeting minutes, analysis of the reconstruction activities and progress,
              and financial analyses and records. We did not verify cost data used in this
              report.

              There were no prior audit findings affecting this area of review. We conducted
              the audit at USAID/Mozambique in Maputo, Mozambique from August 16 to 27,
              2004. The audit also included a field visit to observe 225 kilometers of the
              completed Phase I section of the rail line.




                                                                                              13
Methodology

To gain an understanding of USAID/Mozambique’s implementation and monitoring
efforts, we held discussions with officials from the Mission and the contractors. We
also reviewed relevant project documentation.

To accomplish the audit objective, we developed an audit program and performed
the following tasks:

   •   Reviewed applicable laws, regulations, and USAID policy and guidance
       related to the audit objective.

   •   Gained an understanding of USAID/Mozambique’s implementation and
       monitoring of rail reconstruction and repair by reviewing and analyzing
       applicable documentation such as—but not limited to—contracts, work
       plans, trip reports, progress reports, minutes of meetings, and financial
       reports.

   •   Reviewed the financial data—specifically vouchers submitted by the
       engineering consulting firm—to determine whether USAID/Mozambique
       had reviewed them for accuracy and paid them in a timely manner.

   •   Conducted a site visit of the rail line between Maputo and Macarrantane,
       Mozambique to observe the completed work and to interview contractor
       personnel.

We did not set a materiality threshold for this audit as the nature of the audit did
not lend itself to the establishment of such a threshold. However, we designed the
audit to address potential concerns such as:

   •   Inadequate oversight of reconstruction activities that might increase the
       likelihood of contracting irregularities.

   •   Inaccurate reporting on the status of contract activities.

   •   Lack of awareness of existing problems at the construction site.

   •   Payment made for services not rendered.




                                                                                 14
                                                                                                 Appendix II


Management                                      UNITED STATES
Comments                            AGENCY FOR INTERNATIONAL DEVELOPMENT
                                                USAID MISSION TO MOZAMBIQUE

             JAT Complex              U.S.A Postal Address:                 Department Fax Numbers
             Rua 1231, No. 41         2330 Maputo Place                     Director:          258 1 352-099
             Bairro Central “C”       U.S. Department of State              Executive Officer: 258 1 352-130
             Maputo, Mozambique       Washington, D.C. 20521-2330           Controller:        258 1 352-140
                                                                            S01/SPU:           258 1 352-085
             Phone: 258 1 352-000                                            S02/S03:          258 1 352-086
             Fax: 258 1 352-100                                             SPO/PDO            258 1 352-148
                                                                            PMU:               258 1 35-2149



             MEMORANDUM




             To:       Jay Rollins
                       Regional Inspector General/Pretoria

             From:      Jay L. Knott /s/
                        Mission Director, USAID/Mozambique

             Date:      October 29, 2004

             Subject: Draft Report on Audit of USAID/Mozambique’s Performance Monitoring of
                      Railroad Rehabilitation under the Southern Africa Floods Supplemental
                      Appropriations, Dated: September 30, 2004


             Recommendation No. 1 of the referenced report is as follows:

             We recommend that USAID/Mozambique conduct a current performance evaluation of the
             engineering consulting firm that provided design and supervision services for the railroad
             rehabilitation funded under the Southern Africa Floods Supplemental Appropriations and
             prepare a contractor performance report documenting the results of the evaluation.

             USAID concurs with this recommendation and has the following response:

             This potential recommendation was identified during the Audit Exit Conference held on August
             27, 2004, following the conclusion of the field work by RIG/Pretoria staff. On August 31, 2004
             the project CTO requested that the Procurement Management Unit (PMU) initiate a formal
             performance evaluation. The CPS system evaluation cycle was such that this could only be
             done in October. The CTO completed the evaluation on October 20, 2004.

             It is now envisioned that this contract will be extended through to September 30, 2005 to enable
             final inspections during the railroad reconstruction defect’s liability period. A final audit will be
             performed at the completion of the contract, per USAID policy.




                                                                                                               15
